OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/JAMAICA’S
HURRICANE RECOVERY AND
REHABILITATION PROGRAM


AUDIT REPORT NO. 1-532-05-008-P
April 12, 2005




SAN SALVADOR, EL SALVADOR
               Office of Inspector General




    April 12, 2005


    MEMORANDUM

    FOR:                     USAID/Jamaica Director, Karen D. Turner

    FROM:                    RIG/San Salvador, Steven H. Bernstein “/s/“

    SUBJECT:                 Report on Audit of USAID/Jamaica’s Hurricane         Recovery   and
                             Rehabilitation Program (Report No. 1-532-05-008-P)


    This memorandum is our final report on the subject audit. In finalizing this report, we
    considered your comments on our draft report and have included your response in Appendix II.

    This report contains five recommendations for your action. Based on your comments,
    management decisions have been reached for these recommendations. Determination of final
    action will be made by the Bureau for Management’s Office of Management Planning and
    Innovation (M/MPI/MIC).

    I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 228-5457 - Fax (503) 228-5459
CONTENTS
Summary of Results………………………………………………………………………………. 1

Background ………………………………………………………………………………………… 2

Audit Objectives……………………………………………………………………………………… 3

Audit Findings………………………………………………………………………………………. 4

What steps did USAID/Jamaica implement to manage its
hurricane recovery and rehabilitation program? …………………………………………………. 4

Were the management processes established for the hurricane
recovery and rehabilitation program operating as designed?................................................. 6

    Architectural and Engineering Reviews Were
    Not Conducted………………………………………………………………………………….. 9

    Vouchers Were Reviewed Without Supporting
    Documentation…………………………………………………………………………………. 10

    Environmental Reviews Were Not Conducted
    For Each Project……………………………………………………………………………….. 11

    Roles and Responsibilities Were Not Clearly Defined…………………………………….. 12

    Monitoring Reports Were Not Received Timely.………………………………………….... 13

Evaluation of Management Comments……………………………………………………….. 14

Appendix I – Scope and Methodology…………………………………………………………15

Appendix II – Management Comments……………………………………………………….. 17

Appendix III – Risk Analysis……………………………………………………………………. 19
SUMMARY OF RESULTS
The Regional Inspector General/San Salvador conducted this audit to determine the steps
USAID/Jamaica implemented to manage its hurricane recovery and rehabilitation program
and to determine if the management processes established for the hurricane recovery and
rehabilitation program were operating as designed.

USAID/Jamaica designed 12 steps to control significant risks facing its hurricane recovery and
rehabilitation program.     These steps included reviewing and approving sub-awards,
communicating and coordinating with partners (governmental and non-governmental),
participating in the development of the eligibility criteria for beneficiaries, reviewing
implementing partners’ monthly and/or bi-weekly progress reports, ensuring audits would be
conducted for sub-awardees, conducting regular site visits, acquiring external accounting
services to review invoices paid on behalf of the Government of Grenada, conducting
engineering assessments, reviewing monthly vouchers submitted by implementing partners,
conducting environmental assessments, coordinating monitoring efforts with an oversight
monitoring firm, and reviewing implementing partners’ work plans and budgets (page 4).

Of the 12 management processes (control activities) established for the hurricane recovery
and rehabilitation program, four were operating as designed, three were started but not far
enough along to assess whether they were operating as designed, and five were not
operating as designed (page 6).

We made five recommendations to address the issues discussed in this report. We
recommended that USAID/Jamaica (1) acquire engineering services to oversee and monitor
the quality control reviews conducted by the subcontractors; (2) incorporate evaluating
supporting documentation in its reviews of vouchers submitted by implementing partners; (3)
complete an environmental checklist for each project site; (4) establish clearly defined roles
and responsibilities for Cognizant Technical Officers and members of the monitoring oversight
firm; and (5) maintain a spreadsheet of target due dates for each activity to ensure that all
activities are completed by the established due dates (pages 10 to 13).

USAID/Jamaica agreed with the findings and recommendations presented in this report (page
17).




                                                                                            1
BACKGROUND
During the 2004 hurricane season, several Caribbean islands - including Haiti, Grenada,
Trinidad, Tobago, and Jamaica - experienced severe storms and widespread damage.
Congress approved $100 million of supplemental funds to assist Caribbean islands in their
efforts to recover from the destruction.         Of that amount, USAID/Jamaica received
approximately $63 million to provide relief to the citizens of Grenada and Jamaica and other
islands distributed as follows:

Table 1: Supplemental Funding Received by USAID/Jamaica

                                                                              $ million
       Grenada
       Housing reconstruction and community revitalization                                13
       Agriculture and business revitalization                                            14
       Counterpart financing                                                               8
       Schools                                                                            11
       Subtotal – Grenada                                                                 46
       Jamaica
       Community revitalization and infrastructure reconstruction                        5
       Agriculture and business revitalization                                           6
       Schools                                                                           4
       Subtotal – Jamaica                                                               15
       Bahamas                                                                           1
       Trinidad and Tobago                                                               1
       Total                                                                           $63

USAID/Jamaica’s hurricane recovery and rehabilitation program was implemented in two
phases. Phase I of the program was for 6-months immediate recovery, financed with Mission
and USAID/Washington reprogrammed funds totaling $10.7 million ending on March 31, 2005.
Phase II of the program was for the expanded recovery financed with the supplemental
appropriated funds noted above of approximately $63 million from Congress for a 1-year
period ending on December 31, 2005.

This audit focused only on Phase II activities. As of February 14, 2005, approximately $60
million had been obligated under Phase II activities, and comprised of four components for
Grenada and Jamaica:

   •     Community Rehabilitation – Activities included repairing houses and constructing new
         houses. The implementing partner was Planning and Development Collaborative
         International (PADCO) in both Grenada and Jamaica.

   •     Business and Agriculture Rehabilitation Component – Activities included job skills
         training, grant and technical assistance to small and medium enterprises, and support
         for rehabilitation of the agriculture sector. The implementing partners were CARANA
         Corporation in Grenada and Development Alternatives Inc./Fintrac and Jamaica
         Exporter’s Association in Jamaica.




                                                                                               2
    •   Schools Rehabilitation and Re-Supply – Activities focused on school repairs and re-
        supply of materials and equipment. The implementing partner was PADCO in both
        Grenada and Jamaica.

    •   Support of Government Operations – Activities including paying certain government
        utility bill payments for the Government of Grenada. The implementing partner was
        Wingerts Consulting Inc.

USAID/Jamaica also contracted Wingerts Consulting Inc. to provide oversight services for the
entire program.

AUDIT OBJECTIVES
As part of its fiscal year 2005 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•   What steps did USAID/Jamaica implement to manage its hurricane recovery and
    rehabilitation program?

•   Were the management processes established for the hurricane recovery and rehabilitation
    program operating as designed?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                                          3
AUDIT FINDINGS
What steps did USAID/Jamaica implement to manage its hurricane
recovery and rehabilitation program?
USAID/Jamaica designed 12 steps (control activities) to manage risks related to program
implementation. Steps implemented by USAID/Jamaica to manage the hurricane recovery
and rehabilitation program included:

   •   Reviewing and approving sub-awards’ supporting documents and specifications;
   •   Communicating and coordinating with partners (governmental and non-governmental);
   •   Participating in the development of the eligibility criteria for beneficiaries;
   •   Reviewing implementing partners’ monthly and/or bi-weekly progress reports;
   •   Ensuring audits would be conducted for sub-awardees;
   •   Conducting regular site visits;
   •   Acquiring external accounting services to review invoices paid on behalf of the
       Government of Grenada;
   •   Conducting engineering assessments;
   •   Reviewing monthly vouchers submitted by implementing partners;
   •   Conducting environmental assessments;
   •   Coordinating monitoring efforts with an oversight monitoring firm; and
   •   Reviewing implementing partners’ work plans and budgets.

According to the Government Accountability Office’s (GAO) Standards for Internal Controls in
the Federal Government, management should comprehensively identify risks and should
consider all significant interactions between the entity and other parties as well as internal
factors at both the Mission-wide and activity level. Once the risks have been identified, GAO
states that they should be analyzed for their possible effect which includes estimating the
risk’s significance, assessing the likelihood of its occurrence, and deciding how to manage the
risk through appropriate actions.

Although USAID/Jamaica did not complete a formal risk assessment in line with GAO’s
description, USAID/Jamaica performed on-going, informal assessments to identify program
risks and developed internal control activities to prevent the risks from becoming significant
noncompliance issues. USAID/Jamaica together with RIG/San Salvador identified the
following categories of risks for the hurricane recovery and rehabilitation program. Included in
each category, are specific control activities designed to manage the risks. The risk analysis
is included in Appendix III. A summary of risks and the control activities designed to manage
those risks are included in Table 2.




                                                                                              4
Table 2: Summary of Risks and Control Activities

                                                                    Risk Category
                                            Program   Procurement     Time Cost     Quality   Environment
 Reviewing and approving sub-awards’                       X
 supporting documents and
 specifications

 Communicating and coordinating with          X                        X
 partners (governmental and non-
 governmental)

 Participating in the development of the      X
 eligibility criteria for beneficiaries

 Reviewing implementing partners’                                      X
 monthly and/or bi-weekly progress
 reports

 Ensuring audits would be conducted for                                       X
 sub-awardees

 Conducting regular site visits                                        X

 Acquiring external accounting services                                       X
 to review invoices paid on behalf of the
 Government of Grenada

 Conducting engineering assessments                                                   X

 Reviewing monthly vouchers submitted                                         X
 by implementing partners

 Conducting environmental assessments                                                             X

 Coordinating monitoring efforts with                                  X
 oversight monitoring firm

 Reviewing implementing partners’ work                                 X
 plans and budgets


Program Risks – Program risks included the possibilities of not properly identifying
beneficiaries and the possibilities of host country government involvement with the program.
To manage the risk related to identifying beneficiaries, the Cognizant Technical Officers
(CTOs) and the Contracting Officer participated in the development of the eligibility criteria,
approved the final eligibility criteria, or approved individual beneficiaries depending on the
circumstances. To manage the political risks of host country interference in Jamaica and
Grenada, the CTOs, the Mission Director, and representatives from the monitoring firm
conducted regular meetings with the host governments and ministries to resolve issues as
they arise.

Procurement Risks – Procurement risks included the possibilities that contractors do not
comply with competitive awarding procedures required by the Federal Acquisition Regulation
in awarding their sub-awards, and that award documents do not contain all the required
provisions. To manage this risk, the CTOs and the Contracting Officer reviewed and




                                                                                                            5
approved sub-award supporting documents and specifications to ensure that all contract
awarding procedures were followed and that all required provisions were included.

Time Risk – Time risk included the possibility of not being able to complete the activities
within the established time frame. Some factors that may contribute to this risk were weather
delays, inability of vendors to deliver goods on time, unavailability of materials, and limited
workforce. To manage this risk, the CTOs communicated with implementing partners via
telephone and email weekly or sometimes daily, reviewed work plans, received monthly
progress reports, and conducted regular site visits. In addition, services from a monitoring
firm, Wingerts Consulting Inc., were acquired to assist in managing the program.

Cost Risks – Cost risks included possibilities of unauthorized, unapproved, invalid, and
duplicate payments. For the Mission, this risk was increased because two of its contracts
were awarded to the same implementing partner. The implementing partner was sharing
office space and staff under two separate contracts. To manage this risk, the CTOs reviewed
vouchers submitted by the implementing partners. Also, the Mission prepared an audit
strategy and audit universe to ensure that audits of subcontractors would be conducted.
Furthermore, one of the components of the hurricane reconstruction program was to provide
financial assistance directly to the Government of Grenada. The financial assistance would
include paying incurred costs of the Government of Grenada for maintaining government
operations. Accounting services were in process of being acquired to review those vouchers.

Quality risks – Quality risks included the possibilities of poor workmanship, lack of
qualified/experienced contractors, use of substandard materials, and application of
construction methods that were not hurricane resistant. To manage this risk, the Mission
hired Wingerts Consulting Inc. to perform engineering services.     The engineer was
responsible for providing engineering services.

Environmental risks – Environmental risks included the possibilities of non-compliance with
environmental standards and regulations established by USAID and the Government of
Grenada and Jamaica and the possibilities of environmental damages caused by the program
activities. To manage this risk, the Mission Environmental Officer prepared an Initial
Environmental Examination for the entire program.

Were the management processes established for the hurricane
recovery and rehabilitation program operating as designed?
Of the 12 management processes (control activities) established for the hurricane recovery
and rehabilitation program, four were operating as designed, three were started but not far
enough along to assess whether they were operating as designed, and five were not
operating as designed.

Control activities that were operating as designed:

   •   Reviewing and approving sub-awards’ supporting documents and specifications;
   •   Communicating and coordinating with partners (governmental and non-governmental);
   •   Participating in the development of the eligibility criteria for beneficiaries; and
   •   Reviewing implementing partners’ monthly and/or bi-weekly progress reports.




                                                                                             6
Control activities that were started but not far enough along to assess whether operating as
designed:

   •   Ensuring audits would be conducted for sub-awardees;
   •   Acquiring external accounting services to review invoices paid on behalf of the
       Government of Grenada; and
   •   Conducting regular site visits.

Control activities that were not operating as designed:

   •   Conducting engineering assessments;
   •   Reviewing monthly vouchers submitted by implementing partners;
   •   Conducting environmental assessments;
   •   Coordinating monitoring efforts with oversight monitoring firm; and
   •   Reviewing implementing partners’ work plans and budgets.

Reviewing and approving sub-awards’ supporting documents and specifications - The
Cognizant Technical Officers (CTOs) and the Contracting Officer reviewed sub-awards to
ensure compliance with full and open competition regulations established by the Federal
Acquisition Regulation, and ensured that all awards contained standard provisions and
certifications. Because the program was still in its initial stages, only five sub-awards had
been signed and 12 were still in process. Two of USAID/Jamaica’s implementing partners
had not yet entered into any sub-awards.

For the five sub-awards that were signed, contract files contained the following
documentation:

   •   A justification for less than full and open competition;
   •   Approval from the CTO and the Contracting Officer, depending on award amounts;
   •   Signed certifications by the implementing partner; and
   •   Standard provisions and audit rights.

For the 12 sub-awards in process, contract files properly contained all or some (depending on
the status toward completion of each award) of the following documentation:

   •   Bill of Quantity;
   •   Request for Application;
   •   Public Opening of Bid;
   •   Negotiation Memo;
   •   Wingerts Consulting Approval; and
   •   USAID Approval.

Communicating and coordinating with partners (governmental and non-governmental) -
The CTOs were in weekly or daily contact with the implementing partners by phone and
emails. The CTOs made visits to the implementing partners’ offices every two weeks and
sometimes as often as two to three times a week, depending on the need. The CTOs were
also in regular contact and held various meetings with the Governments and Ministries of
Jamaica and Grenada to resolve issues of land tenure and other program issues. A review of
email communications and notes taken by the CTOs at meetings indicated that regular




                                                                                           7
communications took place.        The level of communication was also confirmed by the
implementing partners.

Participating in the development of the eligibility criteria for beneficiaries - The CTOs
and the Contracting Officer participated in the development of the eligibility criteria, approved
the final eligibility criteria, or approved individual beneficiaries, depending on the activity. For
example, in Jamaica and Grenada, the schools and housing construction/repair beneficiaries
were identified by the Office of National Reconstruction and governmental agencies in the
respective countries; therefore, the CTOs and the Contracting Officer did not approve the
eligibility criteria. The CTOs and the implementing partners were working together to prioritize
the activities and resolve issues of land tenure for the beneficiaries. For agricultural activities,
which provided in-kind grants to beneficiaries, the CTOs approved the eligibility criteria prior to
awarding the grants. The criteria was established by Development Alternative Inc./Fintrac and
approved by the CTO and the Contracting Officer. A review of the grant files indicated that
the eligibility criteria for beneficiaries and the individual grants to beneficiaries were properly
signed by the CTO and/or the Contracting Officer.

Reviewing implementing partners’ monthly and/or bi-weekly progress reports - CTOs
received and reviewed monthly and/or bi-weekly progress reports from the implementing
partners. The format of the bi-weekly reports was established by USAID/Jamaica’s CTOs and
used by the CTOs in Jamaica and Grenada and the implementing partners to track activities.
The bi-weekly reports contained detailed descriptions of each activity, the status of the
activity, and results achieved to date for each activity. Because the bi-weekly reports were
very detailed, the monthly reports were for the most part, summaries of the bi-weekly reports
prepared in a different format. A review of the monthly and bi-weekly reports submitted by the
implementing partners indicated that each activity was properly tracked with a description,
status, and results. CTOs’ comments on the activities were noted on the bi-weekly reports,
which indicated that the CTOs reviewed the reports.

Ensuring audits would be conducted for sub-awardees - USAID/Jamaica’s Financial
Management team prepared an audit strategy and an audit universe for all sub-awards
requiring audits in fiscal year 2005 under the hurricane recovery and rehabilitation program. A
review of the audit strategy and audit universe indicated that the Financial Management team
was focused on ensuring that audits would be conducted for sub-awards. However, until the
audit firms have been hired and audit reports have been issued, a determination of whether
the management process for ensuring audits would be conducted was operating as designed
could not be made.

Acquiring external accounting services to review invoices paid on behalf of the
Government of Grenada - USAID/Jamaica was in the process of acquiring accounting
services from PricewaterhouseCoopers to conduct financial reviews of vouchers paid on
behalf of the Government of Grenada under the financial assistance program. However, until
the contract has been approved and the vouchers have been submitted from the Government
of Grenada, a determination of whether the management process for acquiring accounting
services to review the invoices could not be made.

Conducting regular site visits - CTOs planned to conduct regular site visits to the project
sites. However, because the program was still in its initial phase, construction and repair had
not yet begun and site visits had not been conducted. For the agriculture activities,
implementation had begun, and three site visits were conducted by the CTOs. However, until
work has commenced for the construction and repair activities, a determination of whether the




                                                                                                  8
management process for conducting regular site visits was operating as designed could not
be made.

Architectural and Engineering
Reviews Were Not Conducted
 Summary: USAID/Jamaica hired a monitoring firm; however, the firm hired did not have the
 skills required to mitigate the quality risks. The Government Accountability Office’s
 Standards for Internal Controls in the Federal Government described internal control
 activities as policies, procedures, techniques, and mechanisms that enforce management’s
 directives and ensure that actions are taken to address risks. USAID/Jamaica relied on the
 monitoring firm’s engineer to perform engineering reviews but had not realized the engineer
 did not have the skills required to manage the quality risk. Also, the Mission relied on the
 quality control procedures that would be implemented over its construction activities by its
 prime contractors.       Without conducting an architectural and engineering review or
 monitoring the review process to ensure that construction activities are being carried out
 properly, USAID could be faced with construction projects that are of poor workmanship,
 poor quality, and not resistant to future hurricanes. Furthermore, USAID could be faced
 with political repercussions from the Governments of Grenada and Jamaica if the
 construction projects fail.

USAID/Jamaica acquired services from Wingerts Consulting Inc., primarily for the purpose of
providing engineering services as well as providing monitoring and oversight for the entire
program. Wingerts Consulting intended to hire engineers to oversee activities in Grenada and
Jamaica. At the time of the audit, only the engineer in Grenada had been hired. The
responsibilities of the Wingerts Consulting engineer in Grenada included conducting
preliminary site visits with implementing partners to the project areas to assess damage,
reviewing bills of quantities prepared by the implementing partner’s quantity surveyor,
attending tender bid openings, reviewing and approving recommendations of subcontractors
made by quantity surveyor, and conducting regular site visits to the project areas to identify
obvious problems. The Wingerts Consulting team in Jamaica had not yet hired a construction
engineer. According to the Wingerts Consulting Chief of Party, the engineer hired would have
the same responsibilities and skills as the engineer in Grenada, The Wingerts Consulting
Chief of Party also stated that even though hiring engineers was planned, neither engineer in
Jamaica and Grenada would have the skills required to mitigate the quality risks such as poor
construction workmanship, poor quality of materials, and construction methods that would not
be resistant to future hurricanes.

The Wingerts Consulting engineer in Grenada had the overall responsibility for the
reconstruction activities, but was not able to provide, and did not intend on providing, the
architectural and engineering services required to manage the quality risks. According to the
engineer, the Wingerts Consulting engineering services provided were not considered
architectural and engineering services. For example, the Wingerts Consulting engineer had
not reviewed any architectural designs (drawings and sketches) of the construction projects,
had not been involved with the subcontractor selection process, had not been involved with
the prequalification of firms, and had not performed inspections of the project sites. According
to the Wingerts Consulting engineer in Grenada, the services provided were at a very high
level (e.g. obvious construction problems), not at the level that could determine if the quality of
the workmanship or the quality of the materials met USAID’s standards.




                                                                                                 9
Based on discussions with construction experts, CTOs, contractors and engineers at
USAID/San Salvador and USAID/Jamaica, to properly manage the quality risk, a qualified
engineer’s responsibility should include the following:

      Reviewing architectural and engineering designs to ensure that the designs meet all
       the necessary standards and building codes;
      Assessing damage of construction projects;
      Reviewing qualifications of subcontractors to ensure that the subcontractors have the
       qualifications and experience required to carry out the activities;
      Participating in the selection process of subcontractors;
      Reviewing bills of quantities;
      Conducting on-site inspections for quality of workmanship, quality of materials, and
       hurricane construction standards;
      Preparing and forwarding inspection reports to CTOs; and
      Ensuring inspection findings are resolved by contractor.

The Government Accountability Office’s Standards for Internal Controls in the Federal
Government describes internal control activities as policies, procedures, techniques, and
mechanisms that enforce management’s directives and ensure that actions are taken to
address risks. The Automated Directives System (ADS) 201.3.12.12 states “a key part of
planning an activity is determining what management capabilities are needed. The particular
skills and level of effort that are needed to manage an activity will vary.” Furthermore, ADS
596.3.1 states that USAID managers and staff must develop and implement appropriate, cost-
effective management controls for results-oriented management.

USAID/Jamaica relied on the monitoring firm’s engineer to perform engineering reviews, but
had not realized the engineer did not have the skills required to manage the quality risk. Also,
the Mission relied on the quality control procedures that would be implemented over its
construction activities by its prime contractors. However, the quality control procedures would
be implemented by a subcontractor hired by the prime contractor. Quality control procedures
should be conducted by an independent source or should be monitored by an independent
source. Without conducting an architectural and engineering review or monitoring the review
process to ensure that construction activities are being carried out properly, USAID could be
faced with construction projects that are of poor workmanship, poor quality, and not resistant
to future hurricanes. Furthermore, USAID could be faced with political repercussions from the
Governments of Grenada and Jamaica if the construction projects fail.

   Recommendation No. 1: We recommend that USAID/Jamaica (1) verify that quality
   control procedures are designed by its prime contractors to mitigate the quality risks;
   and (2) acquire engineering services to oversee and monitor the quality control
   reviews conducted by the subcontractors to mitigate the quality risks.

Vouchers Were Reviewed Without
Supporting Documentation
CTOs reviewed and approved vouchers submitted by implementing partners, but did not
obtain supporting documentation (e.g., invoices, purchase orders, and receiving reports) for
the vouchers.    Although the CTOs were complying with standards established by ADS
636.3.3.3 for reviewing vouchers, the need to review supporting documentation for the
hurricane recovery and rehabilitation program was evident. ADS 636.3.3.3 stated that




                                                                                             10
contractors and recipients were subject to annual audits, which provided reasonable
assurance that only eligible, supported costs were being claimed for reimbursement;
therefore, requests for support documentation that backed up a contractor's invoice should not
be made on a routine, recurring basis. However, because the audits would not be conducted
until after the program has ended, a more timely review of the supporting documentation was
necessary. Furthermore, the program was subject to vulnerabilities because it was a large
program expected to be implemented in a short time frame which lended itself to a higher risk
of fraud, waste and abuse. The reconstruction element of the program entailed a higher
inherent risk. Also, while some implementing partners had experience with the program, they
did not have the experience in Grenada and Jamaica, and the use of subcontractors
contributed to inherent risks. Lastly, USAID/Jamaica was at an even greater risk of improper
charges since two of its contracts were being implemented by the same implementing partner.
The two contracts were sharing staff as well as office space.

ADS 636.3.3.3 further stated that if at any time a CTO has reason to believe that a
contractor’s or recipient’s financial reports and/or vouchers do not accurately reflect its
expenditures, he or she should discuss the issue with the Contracts or Agreement Officer,
who may then decide to request a financial review or audit of the contract or agreement in
question. ADS 596.3.1 stated that USAID managers and staff must develop and implement
appropriate, cost-effective management controls for results-oriented management, which
reasonably ensure that assets are safeguarded against waste, loss, unauthorized use, or
misappropriation and expenditures are properly recorded and accounted for. To properly and
timely manage the risk of unauthorized, invalid, and duplicate payments, financial reviews of
implementing partners’ vouchers should be conducted on a sample basis. Given the
circumstances, an appropriate level of voucher reviews should include:

      Reviewing invoices, shipping and receiving documents to ensure that purchases were
       authorized, received, valid, and not duplicated on other contracts;
      Reviewing travel and transportation invoices for validly and reasonableness;
      Reviewing inspection reports to ensure that all issues were resolved prior to making
       payments;
      Reviewing time cards to ensure personnel charged to contract were valid and were not
       also charged to other contracts;
      Reviewing vouchers to ensure that only subcontractors approved by USAID were
       requesting payment; and
      Conducting periodic inventory counts to support large purchases.

USAID/Jamaica had always reviewed vouchers without supporting documentation and had
not realized the need to conduct a more thorough review. Furthermore, the Mission relied on
audits that would be conducted on the sub-recipients. Without reviewing supporting
documentation for the vouchers submitted by the prime implementing partners,
USAID/Jamaica would not be timely assured that all payments made were authorized,
properly supported, and valid.

   Recommendation No. 2: We recommend that USAID/Jamaica incorporate evaluating
   supporting documentation in its reviews of vouchers (on a sample basis) to timely
   verify that all payments are authorized, properly supported, and valid.




                                                                                           11
Environmental Reviews Were Not
Conducted For Each Project
USAID/Jamaica conducted an Initial Environmental Examination for the entire hurricane
recovery and rehabilitation program in November 2004. The Mission had not conducted and
did not intend to conduct an environmental assessment or review of each project and did not
have supporting documentation for exemption of an assessment or review for five of the six
contracts.

The Initial Environmental Examination required that an environmental checklist be prepared
for each activity before the activity begins. According to 22 Code of Federal Regulations
(CFR) 216, the purpose of an environmental assessment or review is to provide agency and
host country decision makers with a full discussion of significant environmental effects of a
proposed action. It included alternatives which would avoid or minimize adverse effects or
enhance the quality of the environment so that the expected benefits of development
objectives can be weighed against any adverse impacts upon the human environment or any
irreversible or irretrievable commitment of resources.

USAID/Jamaica had not considered an environmental assessment or review for each project
because the CTOs had not realized that it was required. To properly manage the
environmental risks associated with the program, the Mission should complete an
environmental checklist for each project site that would be reviewed by the Mission
Environmental Officer. If no review or adequate environmental review is conducted prior to
construction, mitigating actions could not be incorporated into the project design where
potential negative environmental impacts were identified. Also, USAID could be in a position
of noncompliance with environmental regulations and standards established by USAID and
host country governments.

   Recommendation No. 3:         We recommend that USAID/Jamaica complete an
   environmental checklist for each project site; which is then reviewed by the Mission
   Environmental Officer.

Roles and Responsibilities
Were Not Clearly Defined
With the added level of monitoring from Wingerts Consulting, the CTOs and the monitoring
firm had to work together to coordinate their monitoring efforts. However, the roles of each
party involved, the CTOs and each member representing the monitoring firm, were not clearly
defined. This made it difficult to carry out monitoring activities. For example, it was unclear as
to who would monitor and track all implementing activities, how efforts would be coordinated
with the implementing partners, who would conduct site visits (the monitoring firm and/or the
CTOs), when site visits would be conducted, how results of site visits would be
communicated, and how the role of public relations would be divided. The CTOs were
uncertain of the roles of the monitoring firm and vice versa. Also, the implementing partners
were uncertain of the roles and had received requests for the same items from both the CTOs
and the monitoring firm. Although the role of the CTOs is defined in ADS 202.3.6.1 and the
role of the monitoring firm was defined in the Statement of Work, the roles and responsibilities
or specific assignments were not defined by the Mission for the CTOs and the monitoring firm
together as one monitoring unit to oversee the hurricane recovery and reconstruction
program.



                                                                                               12
The Government Accountability Office’s Standards for Internal Controls in the Federal
Government described internal control activities as policies, procedures, techniques, and
mechanisms that enforce management’s directives and ensure that actions are taken to
address risks. Also, ADS 201.3.12.12 states “a key part of planning an activity is determining
what management capabilities are needed. The particular skills and level of effort that are
needed to manage an activity will vary.”

Because the program was awarded for a very short period (one year), the Mission focused on
getting the program implemented without considering the complications that it would face with
an added level of monitoring. Without clearly defined roles and responsibilities, the Mission
would not be efficient in achieving its objectives for the program. Duplicate reporting,
additional work, and confusion could be avoided if all roles and responsibilities were clearly
defined.

   Recommendation No. 4: We recommend that USAID/Jamaica establish clearly
   defined roles and responsibilities for its Cognizant Technical Officers and for the
   members of the monitoring oversight firm as it relates to the hurricane recovery and
   rehabilitation program.

Monitoring Reports Were
Not Received Timely
The control activity designed to ensure that monitoring reports were received timely was that
CTOs reviewed contract specifications and reporting requirements as stipulated in the award
agreements. However, the control activity was not operating as designed because finalized
work plans and budgets had not been submitted by Planning and Development Collaborative
International (PADCO). Work plans and budgets were considered monitoring reports
according to CTOs. PADCO had not submitted a final work plan or budget for community
rehabilitation and the school rehabilitation and re-supply activities in both Grenada and
Jamaica. According to the contract reporting requirements, the final work plan and budget
were due on December 17, 2004. As of March 1, 2005, the final work plan and final budget
had not been submitted by the implementing partner.

According to the CTOs, the implementing partners had a late start but were working with a
draft work plan and draft budget that was expected to be finalized within days. Also, with
factors changing constantly, it was difficult for the implementing partners to finalize the
documents. To properly manage the risk of not being able to complete all activities in the time
frame established, all activity due dates should be carefully tracked, monitored, and enforced
to ensure promptness. Without properly tracking, monitoring, and enforcing that all activities
be achieved by the established due dates, USAID may be unable to achieve its goals in the
established time frame.

   Recommendation No. 5: We recommend that the Cognizant Technical Officers
   monitor the program by maintaining a spreadsheet of target due dates for each activity
   and verify that all activities are completed by the established due date.




                                                                                            13
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Jamaica agreed with all the findings and recommendations presented in this report.
Accordingly, management decisions were made for the recommendations. USAID/Jamaica
comments are included in their entirety in Appendix II.

Determination of final action will be made by the Bureau for Management’s Office of
Management Planning and Innovation (M/MPI/MIC).




                                                                                     14
                                                                                 APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The audit was conducted at the offices of
USAID/Jamaica, USAID/Barbados, and contractors’ offices in Grenada from February 14,
2005 through March 1, 2005. The USAID/Barbados office is a satellite office for the
USAID/Jamaica office. Cognizant Technical Officers for activities in Grenada reside in
Barbados. The purpose of the audit was to determine the steps USAID/Jamaica implemented
to manage its hurricane recovery and rehabilitation program and to determine if the
management processes established for the hurricane recovery and rehabilitation program
were operating as designed.

During our audit fieldwork, we obtained an understanding of and assessed the Mission’s
controls related to the management of hurricane recovery and rehabilitation activities being
implemented by CARANA, Development Alternatives Inc./Fintrac and Jamaica Exporters
Association, and Planning and Development Collaborative International (PADCO) as listed
under objective one. We reviewed the Mission’s self-assessment report prepared in
compliance with the Federal Managers Financial Integrity Act for the fiscal year 2004 for those
management controls relevant to the audit objective.

The audit focused only on Phase II of the hurricane recovery and rehabilitation program which
was for the expanded recovery financed with the supplemental appropriated funds of
approximately $63 million from Congress for a 1-year period ending on December 31, 2005.
The audit only focused on the hurricane recovery and rehabilitation activities in Jamaica and
Grenada. This audit did not include any activities under Phase I of the hurricane recovery
and rehabilitation program. As of February 14, 2005, approximately $60 million had been
obligated.

Methodology
To answer audit objective one, we performed the following:

   •   Gained an understanding of the Mission’s hurricane recovery and reconstruction
       program and independently assessed the risks facing the project team in meeting the
       Mission’s objectives;
   •   Together, RIG/San Salvador and the Mission determined and agreed on the risks
       facing the program; and
   •   Identified steps, processes, or control activities implemented or planned by the Mission
       to mitigate the identified risks.

In addition, we interviewed the USAID/Jamaica and USAID/Barbados Cognizant Technical
Officers, Program Officer, Contracting Officer, Financial Analyst, and Controller. We made
visits to the implementing partners’ offices (CARANA, PADCO, Development Alternatives
Inc./Fintrac, and Wingerts Consulting) in both Jamaica and Grenada. The audit objective was
descriptive in nature.




                                                                                            15
                                                                               APPENDIX I


To answer objective two, we interviewed USAID/Jamaica and USAID/Barbados Cognizant
Technical Officers, Program Officer, Contracting Officer, Financial Analyst, Controller, and
implementing partners. In addition, we reviewed all documentation that was available to us at
the time of the audit to determine if the controls were operating as designed. The documents
we reviewed included:

   •   Sub-award supporting documentation and specifications;
   •   Monthly vouchers submitted by implementing partners;
   •   Mission audit strategy and universe for sub-awards;
   •   Site visit reports;
   •   Initial Environmental Examination conducted by the Mission Environmental Officer;
   •   Engineer reports including site visits conducted, bills of quantities reviewed,
       attendance at bid openings;
   •   Eligibility criteria established for beneficiaries;
   •   Implementing partners’ work plans and budgets; and
   •   Implementing partners’ monthly and/or bi-weekly progress reports.




                                                                                          16
                                                                                                APPENDIX II



MANAGEMENT COMMENTS
Memorandum
To:          Steven Bernstein, Regional Inspector General, San Salvador

From:        Peter Klosky, Controller, USAID/J-CAR

CC:          Karen D. Turner, Mission Director, USAID/J-CAR

Date:        April 4, 2005

Subject:     Draft Report on Audit of USAID/Jamaica’s Hurricane Recovery and Rehabilitation Program

             Reference: RIG Audit Report Number 1-532-05-xxx-P



We refer to your memorandum and draft report on the subject audit and now enclose our management comments
to the five recommendations contained in your report.


Recommendation No. 1: We recommend that USAID/Jamaica (1) ensure that quality control procedures
are designed by its prime contractors to mitigate the quality risks; and (2) acquire engineering services to
oversee and monitor the quality control reviews conducted by the subcontractors to mitigate the quality
risks.

USAID Jamaica’s Management Comments:

Mission agrees with the recommendation and has already put in place a quality control procedure for each
construction site. Through the USAID Management Oversight Contract with Wingerts Consulting, engineers
have been hired to provide engineering oversight of the contractors responsible for reconstruction to ensure
contractor compliance. The Wingerts Consulting engineer oversight role has been more clearly defined, put into
writing and distributed to all contractors and an engineering check list and certification process is being put in
place.


Recommendation No. 2:

We recommend that USAID/Jamaica incorporate evaluating supporting documentation in its reviews of
vouchers (on a sample basis) to timely ensure that all payments are authorized, properly supported, and
valid.

USAID Jamaica’s Management Comments:

Mission agrees with the recommendation. The Office of Financial Management (OFM) has put in place a
verification check process for the supporting documentation of the prime contractor's invoices and this process
will continue on a bi-monthly basis throughout the program. These reviews will enable timely assurance that all
payments made are authorized, properly supported, and valid. Wherever the prime contractor’s vouchers do not
accurately reflect its expenditures, we will discuss the issue with the Regional Contracting Officer, and consider
the need for a financial review or audit of the contract or agreement in question.




                                                                                                              17
                                                                                                APPENDIX II



Recommendation No. 3: We recommend that USAID/Jamaica complete an environmental checklist for
each project site; which is then to be reviewed by the Mission Environmental Officer.

USAID Jamaica’s Management Comments:

Mission agrees with the recommendation and is currently putting in place an environmental check process for
each activity. Through the USAID Management Oversight Contract with Wingerts Consulting, the engineers hired
to provide engineering oversight of the contractors will also be responsible for conducting the environmental
check. The Wingerts Consulting engineer oversight role has been more clearly defined to add this additional task
and an environmental check list and certification process is being designed by the Mission Environmental Officer.


Recommendation No. 4: We recommend that USAID/Jamaica establish clearly defined roles and
responsibilities for its Cognizant Technical Officers and for the members of the monitoring oversight firm
as it relates to the hurricane recovery and rehabilitation program.

USAID Jamaica’s Management Comments:

Mission agrees with the recommendation. Roles and responsibilities for the USAID management Oversight
Contractor have been clearly defined for Jamaica, Grenada and the other islands (Bahamas and Tobago). The
roles and responsibilities are in writing and have been shared with each of the USAID contractors working in each
of the countries.


Recommendation No. 5: We recommend that the Cognizant Technical Officers monitor the program by
maintaining a spreadsheet of target due dates for each activity and ensure that all activities are completed
by the established due date.

USAID Jamaica’s Management Comments:

Mission agrees with the recommendation and has already put in place several routine management tasks to
support the CTO in their role in monitoring contractor performance. A CTO Monthly Monitoring check list and
report are to be filled out each month by each CTO, which covers monthly monitoring of financial, administrative,
procurement, and technical management of the contractors. In addition, monthly meetings are held in Jamaica
and Grenada between CTO and contractors to verbally discuss performance to date and address issues. In
addition, the contractor is responsible for sending in a monthly contractor report on performance, and adjustments
have been made to the contractor report to include specific details on due dates for completion of activities.




                                                                                                              18
                                                                                                                                                   APPENDIX III




Risk Analysis
                              Risk Analysis of USAID/Jamaica's Hurricane Recovery and Rehabilitation Activities


Risk Type   Risk                      Significance   Likelihood of   Control Activities                                  Actions to Take
                                      of Risk        Occurrence
Program     Screening criteria for    High           Medium          In most cases, the beneficiaries will be            USAID/Jamaica will work closely with the
            eligible recipients not                                  identified by the Organization of National          implementing partners to prioritize the
            defined                                                  Reconstruction in Jamaica and the                   projects based on the list of eligible
                                                                     Government of Grenada. For the agricultural         beneficiaries prepared by the Organization
                                                                     program, the eligibility criteria established for   of National Reconstruction and the
                                                                     beneficiaries is approved by the Cognizant          Government of Grenada. The implementing
                                                                     Technical Officers (CTOs) and/or the                partners will verify that the eligible
                                                                     Contracting Officer.                                individuals included on the provided list
                                                                                                                         meet the established criteria set by the
                                                                                                                         Government of Grenada and the
                                                                                                                         Organization of National Reconstruction.
            Benefits provided to      Medium         Low             In most cases, the beneficiaries will be            USAID/Jamaica will work closely with the
            ineligible recipients                                    identified by the Organization of National          implementing partners to prioritize the
                                                                     Reconstruction in Jamaica and the                   projects based on the list of eligible
                                                                     Government of Grenada. For the agricultural         beneficiaries prepared by the Organization
                                                                     program, the eligibility criteria established for   of National Reconstruction and the
                                                                     beneficiaries is approved by the CTO and/or         Government of Grenada. The implementing
                                                                     the Contracting Officer.                            partners will verify that the eligible
                                                                                                                         individuals included on the provided list
                                                                                                                         meet the established criteria set by the
                                                                                                                         Government of Grenada and the
                                                                                                                         Organization of National Reconstruction.
            Benefits rejected for     High           High            In most cases, the beneficiaries will be            USAID/Jamaica will work closely with the
            eligible recipients                                      identified by the Organization of National          implementing partners to prioritize the
                                                                     Reconstruction in Jamaica and the                   projects based on the list of eligible
                                                                     Government of Grenada. For the agricultural         beneficiaries prepared by the Organization
                                                                     program, the eligibility criteria established for   of National Reconstruction and the
                                                                     beneficiaries is approved by the CTO and/or         Government of Grenada. The implementing
                                                                     the Contracting Officer.                            partners will verify that the eligible
                                                                                                                         individuals included on the provided list
                                                                                                                         meet the established criteria set by the
                                                                                                                         Government of Grenada and the
                                                                                                                         Organization of National Reconstruction.




                                                                                                                                                                 19
                                                                                                                                                      APPENDIX III



Risk Type     Risk                        Significance   Likelihood of   Control Activities                               Actions to Take
                                          of Risk        Occurrence
              Political issues with the   High           High            The Mission Director, CTOs, and Wingerts         USAID/Jamaica will continue to
              host country                                               Consulting communicate regularly with the        communicate regularly with the
              governments                                                Governments and Ministries of Jamaica and        Governments and Ministries of Jamaica and
                                                                         Grenada.                                         Grenada to ensure that issues are resoled
                                                                                                                          timely.
Procurement   Contractor did not          High           Medium          The CTOs and the Contracting Officer review      The CTOs and the Contracting Officer will
              comply with competitive                                    and approve sub-award supporting                 continue to review sub-awards to ensure
              award process resulting                                    documentation and specifications to ensure       compliance with competitive awarding
              in higher costs to the                                     that sub-awards comply with competitive          processes and to ensure that proper
              U.S. Government                                            awarding processes and that all standard         standard provisions are included.
                                                                         provisions are included in the documents.
              Award documents do          Medium         Medium          The CTOs and the Contracting Officer review      The CTOs and the Contracting Officer will
              not contain all the                                        and approve sub-award supporting                 continue to review sub-awards to ensure
              required provisions and                                    documentation and specifications to ensure       compliance with competitive awarding
              signed certifications                                      that sub-awards comply with competitive          processes and to ensure that proper
                                                                         awarding processes and that all standard         standard provisions are included.
                                                                         provisions are included in the documents.
Time          Delays in determination     High           High            Delays in prioritizing projects (selecting       The CTOs and implementing partners will
              of land tenure status                                      beneficiaries from the pre-established list)     continue to respond to government inquiries
                                                                         have occurred due to land tenure issues. The     to resolve problems as quickly as possible.
                                                                         CTOs and the implementing partners are
                                                                         working closely and regularly with the
                                                                         Governments and Ministries of Jamaica and
                                                                         Grenada to resolve land tenure issues.
              Work not completed on       High           High            CTOs are in regular communication with the       CTOs will track each activity and ensure that
              time                                                       implementing partners, plan to conduct regular   it is completed in the time frame established.
                                                                         site visits, receive progress reports, work
                                                                         plans, and budgets.
              Materials are               High           Low             The implementing partners have already made      CTOs will ensure that implementing partners
              unavailable                                                contact with local suppliers. They will ensure   are making orders in advance to mitigate
                                                                         that orders are made in advance to ensure        any risks of unavailability of materials and
                                                                         availability.                                    supplies.
              Delays due to poor          High           Low-Medium      Weather cannot be controlled. However, the       USAID/Jamaica and the implementing
              weather                                                    implementing partners are well aware of the      partners will plan ahead to avoid delays
                                                                         rainy seasons and will plan their work           caused by poor weather conditions.
                                                                         accordingly (e.g., ensure that main structures
                                                                         are installed before the rainy season).
              Unreasonable or             Medium         Medium          The CTOs work closely with the implementing      The CTOs will ensure that estimates for
              unrealistic estimates                                      partners and ensure that the work plan and       completion are reasonable and achievable
              were used                                                  budget are current and complete and reflect      in the time established.
                                                                         required changes.




                                                                                                                                                                      20
                                                                                                                                                   APPENDIX III



Risk Type   Risk                       Significance   Likelihood of   Control Activities                               Actions to Take
                                       of Risk        Occurrence
            Contractor not held to     Medium         Medium          The CTOs communicate regularly with the          The CTOs will establish target due dates for
            planned activities                                        implementing partners, review work plans,        each activity and ensure that the
                                                                      budgets, progress reports, and plan to conduct   implementing partner achieves activities by
                                                                      regular site visits.                             the due dates established.
            Human resources not        Medium         Medium          The implementing partners will work closely      The implementing partners should be ready
            available when required                                   with the subcontractors to ensure that           to replace subcontractors if they are unable
                                                                      sufficient human resources are available to      to meet the human resources requirements.
                                                                      perform the work.
Cost        Materials lost to          Medium         Low             The subcontractors are responsible for           Implementing partners should ensure
            shrinkage from                                            maintaining adequate inventory controls. Most    subcontractor inventory controls are
            warehousing/storage                                       contracts are on a fixed priced basis.           adequate.
            Contractor has             Medium         Medium          The subcontractors are responsible for           As part of the financial review of vouchers,
            excessive levels of                                       maintaining adequate inventory controls. Most    an inventory count should be conducted by
            inventory in order to                                     contracts are on a fixed priced basis.           USAID/Jamaica periodically to support large
            support purchasing                                                                                         purchases.
            activity.

            Theft of materials and     Medium         Low             Subcontractors are responsible for maintaining   Implementing partners will ensure that
            supplies at staging area                                  adequate security measures for project sites.    subcontractors secure job sites and
            and/or job site                                           Most sites are fenced in and locked.             implement other security controls.
            Payment made to            High           Medium          The CTOs review and approve vouchers             USAID/Jamaica’s review of vouchers
            organizations not                                         submitted by the implementing partners.          submitted by implementing partners should
            approved by USAID.                                        USAID/Jamaica prepared an audit strategy         incorporate evaluating supporting
                                                                      and audit universe to ensure that required       documentation such as invoices, receiving
                                                                      audits will be conducted for all required sub-   reports, inspections reports, timecards, etc.
                                                                      awardees                                         Also, the CTOs should compare sub
                                                                                                                       contractors to USAID’s approved list of
                                                                                                                       contractors.

            Labor cost mischarging     High           High            The CTOs review and approve vouchers             USAID/Jamaica’s review of vouchers
            (e.g., excessive or                                       submitted by the implementing partners.          submitted by implementing partners should
            unusual charges by                                        USAID/Jamaica prepared an audit strategy         incorporate evaluating supporting
            home office employees,                                    and audit universe to ensure that required       documentation such as invoices, receiving
            timecards prepared by                                     audits will be conducted for all required sub-   reports, inspections reports, timecards, etc.
            supervisor not                                            awardees
            employee, charging
            same employees to two
            or more jobs
            concurrently, and
            charging labor hours
            incurred by fictitious
            employee).



                                                                                                                                                                   21
                                                                                                                                                   APPENDIX III



Risk Type   Risk                       Significance   Likelihood of   Control Activities                               Actions to Take
                                       of Risk        Occurrence
            Inflated or unusual        Medium         Medium          The CTOs review and approve vouchers             USAID/Jamaica’s review of vouchers
            freight charges                                           submitted by the implementing partners.          submitted by implementing partners should
                                                                      USAID/Jamaica prepared an audit strategy         incorporate evaluating supporting
                                                                      and audit universe to ensure that required       documentation such as invoices, receiving
                                                                      audits will be conducted for all required sub-   reports, inspections reports, timecards, etc.
                                                                      awardees
            USAID funds disbursed      High           High            The CTOs review and approve vouchers             USAID/Jamaica’s review of vouchers
            for work or goods that                                    submitted by the implementing partners.          submitted by implementing partners should
            have not been                                             USAID/Jamaica prepared an audit strategy         incorporate evaluating supporting
            completed /not                                            and audit universe to ensure that required       documentation such as invoices, receiving
            authorized /not                                           audits will be conducted for all required sub-   reports, inspections reports, timecards, etc.
            substantiated /already                                    awardees. Also, for the financial assistance
            paid for/ or not yet                                      provided to the Government of Grenada,
            received.                                                 USAID/Jamaica will acquire external
                                                                      accounting services to review invoices
                                                                      submitted by the Government of Grenada.
Quality     Repairs do not take into   Medium         Medium          USAID/Jamaica hired a monitoring firm            USAID/Jamaica will acquire architectural
            account structural                                        (Wingerts Consulting) to provide engineering     and engineering services to conduct
            damages                                                   services.                                        thorough assessments of damages prior to
                                                                                                                       construction.
            Quality standards not      High           High            USAID/Jamaica hired a monitoring firm            USAID/Jamaica will acquire architectural
            met /Construction                                         (Wingerts Consulting) to provide engineering     and engineering services to conduct regular
            standards unsuitable for                                  services.                                        inspections of the project sites to ensure that
            conditions /Substandard                                                                                    the quality of the materials used meets
            materials used                                                                                             USAID standards.
            Noncompliance with         High           High            USAID/Jamaica hired a monitoring firm            USAID/Jamaica will acquire architectural
            contract specifications                                   (Wingerts Consulting) to provide engineering     and engineering services to conduct regular
                                                                      services.                                        inspections of the project sites to ensure that
                                                                                                                       the work complies with contract
                                                                                                                       specifications. The architect/engineer will
                                                                                                                       report non-compliance issues to the CTOs
                                                                                                                       and the implementing partners and ensure
                                                                                                                       that issues are timely resolved. The
                                                                                                                       architect/engineer will ensure that the quality
                                                                                                                       of the materials used meet USAID
                                                                                                                       standards.
            Construction projects      High           High            USAID/Jamaica hired a monitoring firm            USAID/Jamaica will acquire architectural
            not resistant to                                          (Wingerts Consulting) to provide engineering     and engineering services to conduct regular
            hurricanes                                                services.                                        inspections of the project sites to ensure use
                                                                                                                       of proper construction methods.




                                                                                                                                                                    22
                                                                                                                                                     APPENDIX III



Risk Type       Risk                      Significance   Likelihood of   Control Activities                              Actions to Take
                                          of Risk        Occurrence
                Inexperienced/            High           Medium          USAID/Jamaica hired a monitoring firm           USAID/Jamaica will acquire architectural
                unqualified contractors                                  (Wingerts Consulting) to provide engineering    and engineering services to conduct regular
                (poor workmanship)                                       services. The engineer is present at bid        inspections of the project sites to ensure that
                                                                         openings and reviews recommendations for        the workmanship complies with USAID
                                                                         subcontractors from the quality surveyor. All   standards. Also, the firm will review and
                                                                         subcontractors are pre-qualified prior to       participate in the selection of subcontractors.
                                                                         bidding.
Environmental   Construction or repairs   High           Low             The Mission Environmental Officer conducted     An environmental checklist should be
                harm the environment.                                    an Initial Environmental Examination for the    prepared for each individual project site and
                                                                         entire program.                                 should be reviewed by the Mission
                                                                                                                         Environmental Officer prior to construction.
                Noncompliance with        High           Medium          The Mission Environmental Officer conducted     An environmental checklist should be
                USAID and host                                           an Initial Environmental Examination for the    prepared for each individual project site and
                government                                               entire program                                  should be reviewed by the Mission
                environmental                                                                                            Environmental Officer prior to construction.
                regulations




                                                                                                                                                                      23
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
